<html>
<title> - CARING FOR SENIORS IN A NATIONAL EMERGENCY: CAN WE DO BETTER?</title>
<body><pre>[Senate Hearing 109-571]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-571

     CARING FOR SENIORS IN A NATIONAL EMERGENCY: CAN WE DO BETTER?

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                              MAY 18, 2006

                               __________

                           Serial No. 109-23

         Printed for the use of the Special Committee on Aging


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
28-924 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                       SPECIAL COMMITTEE ON AGING

                     GORDON SMITH, Oregon, Chairman
RICHARD SHELBY, Alabama              HERB KOHL, Wisconsin
SUSAN COLLINS, Maine                 JAMES M. JEFFORDS, Vermont
JAMES M. TALENT, Missouri            RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
MEL MARTINEZ, Florida                EVAN BAYH, Indiana
LARRY E. CRAIG, Idaho                THOMAS R. CARPER, Delaware
RICK SANTORUM, Pennsylvania          BILL NELSON, Florida
CONRAD BURNS, Montana                HILLARY RODHAM CLINTON, New York
LAMAR ALEXANDER, Tennessee           KEN SALAZAR, Colorado
JIM DEMINT, South Carolina
                    Catherine Finley, Staff Director
               Julie Cohen, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Herb Kohl...........................     1
Prepared Statement of Senator Gordon Smith.......................     7
Statement of Senator Thomas Carper...............................     8

                                Panel I

Maurice Frisella, New Orleans, LA................................     3
Jean Cefalu, Slidell, LA.........................................     9

                                Panel II

Daniel W. Sutherland, officer, Office of Civil Rights and Civil 
  Liberties and chair, Interagency Coordinating Council on 
  Emergency Preparedness and Individuals with Disabilities, 
  Department of Homeland Security, Washington, DC................    20
Cynthia Bascetta, director, Health Care, U.S. Government 
  Accountability Office, Washington, DC..........................    36
Amy B. Aiken, assistant director, Miami-Dade Office of Emergency 
  Management, Miami, FL..........................................    56
Carmel Bitondo Dyer, M.D., associate professor of Medicine, 
  director, Baylor College of Medicine Geriatrics Program at the 
  Harris County Hospital District, Houston, TX...................    70

                                APPENDIX

Prepared Statement of Senator Susan Collins......................    83
Prepared Statement of Senator Mel Martinez.......................    83
Prepared Statement of Senator Ken Salazar........................    84
Letter from William Dunwiddie....................................    86
Statement and Report from AARP...................................    87

                                 (iii)



 
     CARING FOR SENIORS IN A NATIONAL EMERGENCY: CAN WE DO BETTER?

                              ----------                              



                         THURSDAY, MAY 18, 2006

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room SD-628, Dirksen Senate Office Building, the Hon. Herb Kohl 
presiding.
    Present: Senators Smith, Collins, Kohl, Carper, and Nelson.

             OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. At this time, I would like to call the 
hearing to order and welcome our witnesses.
    Last September, as the Nation still reeled from the tragic 
and shameful images of seniors abandoned during the aftermath 
of Hurricane Katrina, this Committee held a hearing on how to 
prepare for the next disaster.
    Today, we return to that topic, determined that we never 
again leave our parents and grandparents to face an emergency 
alone. Today is not about pointing fingers for past tragedies. 
Today is about looking forward. Hurricane season is just around 
the corner. The threat of terrorism remains, and the potential 
for an avian flu pandemic looms.
    We all agree that we let our seniors down after Hurricane 
Katrina. But as sorry as we all are, are we any more ready for 
the next hurricane or attack or disaster?
    We now know that cookie-cutter emergency plans are of 
little use to seniors, especially those who depend on others 
for assistance in their daily lives. We must put in place a 
concrete strategy that recognizes and masters the challenges of 
keeping seniors out of harm's way. This Committee is steadfast 
in its pursuit of that goal. We hope that we will learn today 
that the administration is equally committed.
    We will hear today from a senior who was forced to navigate 
Katrina without much assistance from the government and from a 
nurse who has helped countless seniors after hurricanes. Also 
with us today are the Government Accountability Office, the 
Miami-Dade Office of Emergency Management, and a renowned 
geriatrician. We look forward to their recommendations.
    I am particularly interested in hearing testimony today 
from the Department of Homeland Security, which is the lead 
Federal agency for emergency preparedness. We are happy that 
Dan Sutherland is here from the Office of Civil Rights and 
Civil Liberties, and we look forward to hearing what that 
department is doing to prepare seniors for emergencies.
    We expect to work with the department on some common sense 
solutions. We must do a better job in telling older people what 
supplies and plans they need to have in place if a terrorist 
attack or flu pandemic hits.
    As a start, my office has developed a tip sheet, and the 
Department of Homeland Security should follow with pamphlets, 
public pronouncements, and specific directions for seniors and 
the agencies that serve them. DHS also should direct States and 
local governments to plan, train, and practice evacuations and 
sheltering in place exercises that specifically target seniors.
    DHS should also require hospitals and nursing homes to plan 
ahead for evacuations and fund training for first responders to 
help seniors who live at home and may be unable to evacuate.
    Our office will be developing a report outlining 
recommendations from our witnesses and other groups. I hope the 
Department of Homeland Security will take these ideas seriously 
and will turn them into action.
    Our lack of preparation for seniors after last summer's 
hurricanes and the terrible price we paid in lives and 
suffering is, indeed, a national tragedy. That tragedy is 
compounded if we ignore the painful lessons of the past.
    We need specific plans, programs, and information for all 
seniors facing emergencies, and we need the commitment and 
energy of a DHS determined, as this Committee is, never again 
to desert our seniors when they need us the most.
    So we look forward to hearing from our witnesses today, and 
we will now turn to the first panel.
    Our first witness on the first panel is Maurice Frisella. 
Mr. Frisella is an 82-year-old man who survived Hurricane 
Katrina mainly on his own, with limited help from government. 
His journey has included being airlifted from New Orleans to 
Baton Rouge, stays in two nursing homes, and also a hospital.
    Mr. Frisella's testimony will help us understand the 
challenges seniors face when the Government does not adequately 
prepare for emergencies.
    Also on the first panel is Jean Cefalu. Mrs. Cefalu is a 
nurse who volunteered her services after Hurricane Katrina. She 
will discuss how the gulf region dealt with the needs of 
seniors and how it continues to struggle with their needs and 
appropriate planning for future emergencies.
    We welcome you both, and we look forward to your testimony.
    First, Mr. Frisella.

         STATEMENT OF MAURICE FRISELLA, NEW ORLEANS, LA

    Mr. Frisella. Good morning, Senator and friends. Good 
morning.
    I am Maurice Frisella.
    Senator Kohl. Is your mike on?
    Mr. Frisella. This is my testimony as best I can do it. All 
right.
    Orleanians have endured hurricanes in the past. 
Courageously, we decided to face this Katrina, too. Our 100-
year-old house is high and study Victorian. We decided to 
remain within our own shelter, see Katrina to the finish.
    Slowly, the monstrous wind began to rise, blowing apart the 
security of our world. Rain and wind began to lash the house. 
The old place seemed to tremble, wind beneath the house. The 
floor creaked.
    Suddenly, with no warning, the electric power was cut. 
Candle power was blindly groped for in the black and eagerly 
sought, and it was found. Gas and water were soon suffered the 
same privation. No radio batteries because the batteries long 
lay unused.
    I ventured to look out the front door. The high wind 
snatched the door from my hand. Rain lashed, and in an instant, 
I was wet. The trees were in a fury. Flying trash seemed 
endless. The wind blew me backwards. Fear caught me. Was there 
no help? Was there no warning? But when? I had no knowledge.
    Surely, the city's fathers must have given warning? I saw 
no police prowl cars, no National Guards, no lights, no 
neighbors. In the dark, I sensed that water was gathering about 
the house, but how high?
    I heard the screech of tearing timber. Something had 
fallen, something awful. I braved the beating wind. I could not 
see too well. My God, the upper bathroom was gone. The 
onslaught of wind increased more fearfully. I closed the front 
door, not feeling too secure. In the flickering glow of 
candlelight, the draperies billowed and trembled.
    Wind, wind, invading every chink and crack. Somewhat short 
of breath, I paused to gather my intelligence. Then for a 
moment, the wind stopped. The world was silent. The house 
seemed so dreary. A dead calm in the calamity. Peggie began to 
meow and cry. We waited for the dawn. It would not come.
    ``It is OK, Peg.'' The frightened cat was in my lap. As for 
food, there was bottled water, canned food, crackers, peanut 
butter, and some candy. I tried to rest on the sofa. The 
candles were burning low, too low. I feared fire. Surely some 
help would come. A skiff, a guard? Somebody, please.
    It was still calm, cold, damp. I looked out. I knew 
instinctively water was there, but would it rise more? No 
humans, no sound. Only blackness and fear. Where was the 
police? Where was the militia?
    Finally, after 3 days within the house, September 3, 2005, 
I went outside. I stepped into the water up to my knees. Filth, 
garbage, branches, pieces of furniture floated. Believe it. 
Even a wingchair.
    Being fatigued, after prowling in the street, I dared rest 
in the floating chair. I jumped to my feet, foolishly trying to 
get the attention of a helicopter. I waded to St. Rock Park 
Avenue about 100 yards from my own residence with heart fear.
    Nobody in sight, silence and water. Bedraggled trees. I 
waded back to the house for my adopted brother, Buzz. Once 
indoors, I demanded we have got to get out of here. Come on. 
Step into the water. It is not so deep.
    I managed to gather some valuables, stuffed in my little 
leather shaving kit. We waded and waded. Good Lord. What 
happened to our world?
    Finally, I was seized with joy. Hope. A National Guard 
vehicle came into my sight. Boy, they spotted us. Two young 
Guards boosted us up. I felt a hot hand on my backside. Buzz, 
too.
    So with soggy trousers and heartfelt thanks, we were seated 
on something like a bench, handed a sandwich and a drink, and 
then we rode wildly and roughly down St. Claude Avenue up to 
Canal Street. The young Guards, no more than boys, were in a 
crouched position with rifles paused looking for trouble.
    However, to end this winded episode, we were driven to the 
arena next to the Super Dome. Some kind medics changed our damp 
clothes. I know I was in a blue paper suit. The helicopter took 
Buzz and me to Baton Rouge and then to a nursing home in 
Gonzalez, about a half hour's drive from the capital city.
    In the nursing home, we unhappily lived there from 
September 3 to April. We missed every joyous holiday. I was 
cursed, hit, and informed by the aides, ``Kiss my gluteus 
maximus.'' You translate that yourself. I am not going to do 
that.
    There were other incidents, too. Food was awful. Buzz went 
into a terrible decline. I lost my place.
    He of the United States Air Force, his knowledge of botany 
and food, Buzz could not eat. The kitchen was filthy. I was 
simply helpless--too much?
    Senator Kohl. It is all right.
    Mr. Frisella. I was simply helpless in the nursing home. I 
called, called, waited, waited--FEMA. Then that Spanish. I was 
offended. This is an English-speaking nation. Let us keep it 
that way.
    My home has been looted. Valuable antiques gone. Pigeons 
have invaded the house. My home has been closed since 
September. I was presented today with two $500 bills from the 
Entergy Company. My house has been closed for seven months. 
Seven months, nothing done. The levee neglected.
    Now this is a rumor, but this was certainly overheard. 
Watch this now. ``Nothing was wrong with that son of a bitching 
levee. It has been that way since I have known myself.'' I lost 
my place. OK. Where is my place? Oh, this, sirs, is my 
sorrowful lamentation. Our elected officials are not taking 
care of our Nation.
    As for the Corps of Engineers, by thunder, they blunder. 
Does no one see the United States is in a decline? No one.
    Divine Father, spare our Nation. So I humbly lift my being 
to God. Pray my words are not false. The elected ones are truly 
only for one thing--privilege, prestige, possession, and power. 
They are exalted and way above the citizens. This is the end.
    Here is a quotation from Shakespeare from Richard III. ``In 
the base court, come down. Come down.'' That, sir, is the end 
of my statement. I hope I haven't been too foolish.
    [The prepared statement of Mr. Frisella follows:]
    [GRAPHIC] [TIFF OMITTED] T8924.001
    
    [GRAPHIC] [TIFF OMITTED] T8924.002
    
    Senator Kohl. Thank you. You have made a beautiful 
statement. We appreciate it very much.
    Mr. Frisella. OK. Don't think I haven't been nervous.
    Senator Kohl. You did great. You did absolutely great.
    Mr. Frisella. Thank you.
    Senator Kohl. Before we turn to Mrs. Cefalu, I would like 
to ask our Chairman, Gordon Smith, for his statement.
    The Chairman. Well, thank you, Senator Kohl.
    Out of respect for our witnesses, and with apology for the 
vote that has delayed myself and Senator Carper for being here, 
I will put my statement in the record so we don't hold them any 
longer. I want to hear from them.
    [The prepared statement of Senator Smith follows:]

               Prepared Statement of Senator Gordon Smith

    Good morning.
    Senator Kohl, I appreciate being here today to revisit one 
of the most important topics this Committee has looked into 
during the past year.
    Since the tragic events on the Gulf Coast last year, we in 
Congress have devoted much of our time to helping our fellow 
Americans who were displaced by Hurricanes Katrina and Rita get 
back on their feet. We are continuing the long process of 
rebuilding those areas of the Gulf region that have been so 
ravaged by these terrible storms.
    The Baltimore Sun on Sunday examined difficulties that the 
200,000 people currently living in New Orleans are facing when 
assessing medical care from the city's devastated health care 
system. Damage from Hurricane Katrina has reduced the number of 
hospital beds in the city from 2,300 to 500, and Charity 
Hospital, the city's hospital for the uninsured, is not 
expected to reopen for years. Meanwhile, the uninsured rate in 
the city has increased from about 20 percent to 40 percent, 
largely because many people have lost jobs that provided health 
insurance. In addition, out of 4,500 physicians who worked in 
New Orleans before Katrina, only about 1,200 have returned.
    While we must continue to work to ensure New Orleans is a 
safe city to return to, the past few months have also been a 
time to examine the preparedness of our federal, state and 
local governments to deal with such disasters in the future.
    Last October, this Committee held a hearing entitled 
Preparing Early, Acting Quickly: Meeting the Needs of Older 
Americans During A Disaster. We heard from witnesses who 
described older Americans' special needs that make them 
particularly vulnerable during an emergency. A key lesson that 
came out of our hearing was that the government at all levels 
must do more to ensure the health and safety of older Americans 
during a disaster. Many in this population are extremely 
vulnerable and it is the government's responsibility to make 
certain that adequate steps have been taken to identify those 
in need, evacuate seniors to a safe place and provide 
appropriate care once displaced.
    The October hearing also pointed out that there are other 
substantial issues that still need to be addressed. Issues of 
specific concern are the double-counting of emergency services, 
trouble identifying individuals who have special needs and 
making sure that funding is flexible for an all hazards 
approach to disaster preparedness.
    As we listen to the testimony of our witnesses today, we 
will hear details about the responses to hurricanes Katrina and 
Rita. However we must also consider the myriad of other natural 
and man-made disasters a frail senior may face. Seniors in the 
Midwest may need to prepare for tornadoes, while in the West 
seniors may need to prepare for earthquakes. This is why during 
our last hearing I found the ``all-hazards'' approach to 
disaster preparedness so valuable.
    Simply put an ``all-hazards'' approach focuses more on 
coordinating efforts toward any disaster rather than preparing 
for a specific disaster. By doing this, an agency can be 
prepared to provide for:
    Effective coordination of activities among the 
organizations having a management/response role;
    Early warning and clear instructions to all concerned 
organizations and individuals if a crisis occurs; and
    Continued assessment of actual and potential consequences 
of the crisis at hand.
    As I stated in October, there is no doubt that disaster 
preparedness for older Americans poses a daunting challenge. 
However, I believe hearings like this one will shed light on 
the difficulties we have had in the past to find solutions for 
future disasters.
    Large-scale natural disasters like the hurricanes that 
struck the Gulf Coast stretch our federal, state and local 
response capabilities to their absolute limits. I hope the 
testimony today from our distinguished witnesses allows this 
Committee to learn about disaster preparedness and enables us 
to move forward and protect our most vulnerable citizens during 
emergencies.
    I thank all of you for coming to share your expertise and 
look forward to your comments.
    Thank you.

    Senator Kohl. Thank you.
    Senator Carper.

           OPENING STATEMENT OF SENATOR THOMAS CARPER

    Senator Carper. I would like just to make a very brief 
statement.
    Welcome. We are delighted that you are here and happy to 
have this hearing today.
    I am a Navy veteran and have been, as my colleagues, have 
very, very active on behalf of veterans in my State and across 
the country.
    In the wake of Katrina, when thousands of veterans were 
evacuated from the gulf coast and taken to veterans nursing 
homes and VA hospitals in other States, when they arrived in 
those places, the folks who received them in the new nursing 
homes and hospitals had the medical records because of the 
electronic medical records for all the veterans.
    They knew what medicines they were taking. They knew what 
their medical histories were. They knew what their MRIs or X-
rays or lab tests were. They were able to provide in the new 
homes, receive in their new homes excellent care right away.
    For a lot of folks who were civilians who were evacuated 
from the gulf coast, they ended up in other States, in other 
hospitals, and other nursing homes. They had in many cases 
paper medical records, which were largely destroyed. Those who 
received them did not know the medical histories, the 
prescription medicines that needed to be taken and so forth.
    One of the things that someone's been working on--my 
colleagues and, too, our guests--is to increase the likelihood 
that we are going to have electronic medical records, health 
records for ourselves and for others in this country. Not just 
to help out in emergencies like Katrina, but also in other 
instances just to provide better health care.
    So this is, I think, an important hearing for the cause for 
which it is slated. But there is also another reason that we 
need to provide electronic health records that goes beyond 
emergencies.
    Thanks very much.
    Senator Kohl. Thank you very much, Senator Carper.
    The hearing is very much focused on some of the points that 
you have just made.
    Now we would like to hear from Mrs. Cefalu.

             STATEMENT OF JEAN CEFALU, SLIDELL, LA

    Ms. Cefalu. Senator Smith, Senator Kohl, and honorable U.S. 
Special Senate Committee on Aging members, thank you for the 
opportunity to allow me to share my experiences relative to the 
elderly in both the community and the long-term care 
populations that were affected directly or indirectly by 
Hurricane Katrina.
    While I was not practicing nursing at the time of the 
hurricane, the devastation caused by Katrina produced severe 
labor shortages, especially at nursing homes in the peripheral 
areas of New Orleans, Baton Rouge, and Shreveport. That is why 
I and many other nurses came out of retirement to help out.
    It was at one of these nursing homes that I met and 
informally adopted ``Uncle Buzzy'' and Maurice, who is with me 
here today.
    Several John and Jane Does came from New Orleans area 
nursing homes that were unprepared for the storm. They were 
evacuated at the last minute without identification, health 
histories, or medications. Many couldn't tell us who they were 
or where they were from. Many were acutely ill on arrival and 
had to be shipped to the hospital.
    As I speak to you today, hundreds of evacuees are literally 
trapped in nursing homes around the State and probably other 
States. Since it is still undetermined when or if they can 
return to their homes, the vast majority of them are now 
helpless and don't have the physical ability and/or the 
financial resources to rebuild their lives.
    The seniors who have returned are regular targets for 
unscrupulous individuals who prey on their trusting ways. Other 
evacuated seniors are having to pay out of their own back 
pockets to finance their nursing home stay, using up all of 
their savings and rendering it impossible to get back on their 
feet.
    In some cases, as with Maurice, they had large sums of 
money and personal possessions stolen at the very places that 
they sought shelter and protection. The experience I had after 
Katrina made me realize how delicate and fragile this 
population of advanced age seniors really is. Unlike you and I, 
they don't bounce back.
    One organization that provided tremendous support and 
leadership to our area nursing homes that were either evacuated 
or took in evacuees is the Louisiana Health Care Review's 
Nursing Home Quality Improvement Committee, authorized by CMS.
    They met regularly after Katrina via teleconference and 
onsite to the nursing home staff. My personal and heartfelt 
thanks goes out to one member in particular, Debbie Serio, who 
made herself available to meet day and night, along with 
regular visits to my nursing home after we lost the 
administrator, the director of nurses, and the medical 
director. I was the only RN in the facility for several weeks, 
and I couldn't have done it without her.
    Over the last several months, this group has formulated a 
series of workforce recommendations, which is attached to my 
report. These recommendations are the culmination of several 
facilities' experiences before, during, and after Katrina. This 
list is intended to assist nursing homes relative to evacuation 
procedures, as well as nursing homes who serve as evacuation 
shelters.
    One recommendation that I would like to make, based on my 
personal observation, is that elderly evacuees who are placed 
in nursing homes outside of a disaster area be granted a waiver 
of determination of eligibility for a period of at least 6 
months. Any personal or financial assets accompanying the 
evacuee be secured in a safe place at the accepting facility to 
prevent financial abuse until conditions stabilize.
    It is my opinion that the evacuation process for nursing 
home residents in New Orleans was not adequate. It is a known 
fact that 75 percent of those who died during and after Katrina 
were 75 years of age or older. Appropriate and tested 
evacuation plans for seniors is a key to the prevention of 
elderly deaths in any disaster. But the evacuation plans can 
only go so far if we are not educated relative to geriatric 
issues.
    Every 5 minutes, information was broadcast all over the 
television and the radio where and when to evacuate. All you 
had to do was pick up the phone, and someone would come and 
pick you up. That wasn't the problem.
    Why didn't our seniors get on the bus to leave? The reason 
is our frail elderly would rather die in familiar surroundings 
than spend days in uncertainty and fear.
    Education of geriatric health care professionals in the 
State of Louisiana and the Nation should be a priority with 
aging baby boom upon us now. My husband, Dr. Charles Cefalu, is 
the chief of geriatrics at LSU Health Science Center in New 
Orleans. His program was located at Charity Hospital, which was 
damaged beyond repair.
    Thanks to the immediate and generous support of the 
American Geriatrics Society, the Gerontological Society of 
America, and the John A. Hartford Foundation, he was able to 
relocate his program to another LSU teaching hospital in 
Lafayette, LA, to serve the many immediate needs our seniors 
faced during the aftermath of Katrina.
    It is a shame that our State has only one teaching facility 
to train physicians and nurses in geriatric medicine. That is 
not the case in other States, where geriatric education is the 
norm and not the exception. Louisiana's own congressmen and 
senators should be taking note of this.
    My final recommendation is that Congress reinstate Title 7 
funding of geriatric education centers across the United States 
to address the need for educating geriatric health care 
professionals. Such centers can serve two unique purposes.
    The first is to train geriatric health care professionals 
relative to emergency preparedness, and the second would be to 
serve as a multi-institutional consortium. Depending on the 
effect of a disaster in a particular area, each of the members 
could serve as a coordinating center for the evacuation, post 
disaster assistance, and safe return of our senior citizens to 
their communities.
    Thank you.
    [The prepared statement of Ms. Cefalu follows:]
    [GRAPHIC] [TIFF OMITTED] T8924.003
    
    [GRAPHIC] [TIFF OMITTED] T8924.004
    
    [GRAPHIC] [TIFF OMITTED] T8924.005
    
    Senator Kohl. Thank you very much for your excellent 
testimony.
    Mr. Frisella, we will start with a question for you. It is 
very important for us to learn from seniors like yourself, who 
have experienced such a disaster. As a senior living 
independently, do you feel that you were given appropriate 
information to help you prepare for Hurricane Katrina before it 
struck?
    Mr. Frisella. No, I wasn't fully aware of it. But I knew 
the hurricane was coming. But as I said, we survived other 
hurricanes, and I didn't give it that much attention.
    Senator Kohl. Did you get any information in advance at 
all?
    Mr. Frisella. Some on the television or the radio, but I 
didn't keep the television and the radio on constantly.
    Senator Kohl. So there was no preparation that was given 
out to you to be aware of the fact that disasters may happen, 
and when they happen, the following things should be done? That 
kind of advance preparation was not in evidence at all?
    Mr. Frisella. No, Senator. No, sir.
    Senator Kohl. Tell us, in the months since Hurricane 
Katrina, Mr. Frisella, have you been given direction and 
assistance that you need to get back to where you were before 
the storm occurred?
    Mr. Frisella. Well, I would like to see the old house 
repaired. It didn't have water damage. It had wind damage. When 
they constructed that house, it probably had an outhouse on the 
side of it. So the bathroom was built on the side of the house 
and attached to the house.
    So when the wind came from that back alley, it blew the 
bathroom back this way in the downpour, and it collapsed. That 
is all I can tell you.
    Senator Kohl. All right.
    Mr. Frisella. That is enough.
    Senator Kohl. Thank you.
    Mrs. Cefalu, I didn't get that percentage figure on the 
number of seniors----
    Ms. Cefalu. Seventy-five.
    Senator Kohl. Who were----
    Ms. Cefalu. Seventy-five percent of the people who died in 
Hurricane Katrina were 75 years or older, either during or in 
the aftermath.
    Senator Kohl. Seventy-five percent?
    Ms. Cefalu. Mm-hmm.
    Senator Kohl. Wow. In your opinion, what were the 
Government's greatest shortcomings in responding to the needs 
of seniors during Katrina?
    Ms. Cefalu. Not laying blame on anybody because I am not 
sure how the Government really works, but it was too late. Next 
time, immediate help. Not waiting 3 or 4 days. That was a big 
thing.
    Senator Kohl. Would you say that there is an urgent need 
for advance preparation----
    Mr. Frisella. Yes.
    Senator Kohl [continuing]. Considering that we will be 
having additional catastrophes in the future?
    Ms. Cefalu. Oh, yes. Definitely. But we also have to 
realize because of the ages of our older citizens, we have to 
prepare that they are not going to leave in the event of 
another disaster, and we must be prepared to move in quickly 
after the disaster and locate where they are.
    Just because of the reasons of not leaving their cat or----
    Mr. Frisella. The cat, yes.
    Ms. Cefalu [continuing]. Food, medicines, clothing, doctor, 
their familiar surroundings. That is a reality. Unless we drag 
them out, they are not going to go.
    Senator Kohl. That is a good point.
    Mr. Frisella.
    Mr. Frisella. Could we do something about the pets? I had 
to leave my pet there. People, if you have a pet, it is like a 
child, and you love that thing.
    Senator Kohl. Very well said.
    Mr. Frisella. Yes. May I be so egotistical as to read my 
poem?
    Senator Kohl. Certainly. Go right ahead, sir.
    Mr. Frisella. OK. It is called the ``Curve in Crisis 
Care.'' The curve is in Mississippi. The curve is the Crescent 
City.
    O immortal day, let us pray. Swamp of that mighty stream. 
The suffering of that horrible dream. The matters of the wind 
as cruel as the lash before his cross, the bewailing of our 
loss.
    We sigh, cry with the angels. Beg powers that be, help us. 
Peter, open paradise. How that storm has cast that fatal dice.
    Our curve and that stream is holy. Holy is joyful. Joyful 
is no sin. We wait for those saints to come to begin.
    Clean up, buck up. Swagger in high style, old pal, down 
bright-lighted canal. Dear old South land, how grand. No tears, 
no cheers. Time for jubilation. New Orleans is the doorway to 
our Nation.
    What do you think?
    Senator Kohl. I think that is beautiful.
    The Chairman. That is great.
    Senator Kohl. That is beautiful. We thank you.
    Now we turn to our Chairman, Senator Smith, for his 
questions and comments.
    The Chairman. Jean, you had a remarkable statement in your 
testimony that seniors would rather die than evacuate, and it 
is a shocking thing that 75 percent of the deaths in Katrina 
were among the elderly.
    Do you think that that decision that they would rather die 
than evacuate, would that change if there were better 
preparation, better education, better certainty that the 
seniors knew they had a place to go and that there was a home 
to return to?
    Ms. Cefalu. Actually, yes. But I am not an expert in that 
area.
    A lot of people and a lot of the seniors evacuated had the 
questions of the pets. They are like children. A mother 
wouldn't leave her child. An elderly person is not going to 
leave their pet.
    They have medications. It was on August 29 right?
    The Chairman. Yes.
    Ms. Cefalu. On the 1st, the Social Security checks come in. 
Many disadvantaged, you know, elderly wait for those checks. If 
they don't get them when they come in the mailbox, somebody 
else is going to take them.
    One month without a check, they can't pay for food. They 
can't pay their light bills. Not they couldn't think that there 
is not going to be any lights any way, but they need that 
money. They can't leave without their money. They don't have 
high finances.
    Where were they going to go? A lot of seniors, you know, 
your parents, they can't sit in cars for long periods of time. 
There is no bathrooms on school buses. If anyone has had any 
more than three children, the women in here, you will know that 
when you have got to go, you have got to go. It would be highly 
humiliating to people to have an accident on a crowded school 
bus.
    There are many reasons. So I am not really an expert on 
that, but these are the reasons that they are not going to go. 
A lot of them did. But most of our frailest elderly, they 
didn't.
    The Chairman. But did they make, in the face of the 
evacuation order, was there a conscious decision made that ``I 
am just going to ride this out?'' Ms. Cefalu. I believe so.
    The Chairman. Maybe that question should be asked to 
Maurice, and I loved your poem. But Maurice, you made the 
decision to stay based on your previous experience in 
hurricanes. You had survived them all, and yet I suspect you 
decided to stay in face of an evacuation order because your 
experience, your place, your pet, all of these things, you just 
said, ``I will--'' Mr. Frisella. The house was so strong. I 
wasn't aware that the storm was that severe until I heard the 
crash of the bathroom going down, and I had to investigate what 
is going on.
    The Chairman. Is there anything that the government at the 
local, State, and Federal level could have done to cause you to 
make a decision to evacuate?
    Mr. Frisella. I wouldn't know how to answer that. Please, 
honestly. I wouldn't know how to answer that.
    The Chairman. That is really, I mean, I guess our 
responsibility--not I guess. Our responsibility of Government 
is to make sure that you have a decision to make that is 
informed, and you have some certitude as to what is going to 
happen to you in the evacuation. How your most treasured 
aspects of life, maybe even a pet--I don't know--can be saved 
in all of this.
    Mr. Frisella. My family lived in that house for over 60 
years, 100 years in that parish. I didn't want to leave the 
house. I growed into the house and grow young with the house.
    The Chairman. So you might have made the decision, even if 
the Government had done everything perfectly, you would have 
made the decision to stay?
    Mr. Frisella. Stay put.
    The Chairman. Thank you, Mr. Chairman.
    Senator Kohl. Yes. Just to follow up on that with Mrs. 
Cefalu. If, in fact, seniors are determined to ride it out even 
in the face of catastrophe, what can the Government do?
    Ms. Cefalu. Well, I was talking with some of the other 
people that are going to be on the panel in just a little bit 
about ideas. If it wasn't for the HIPAA laws that maybe 
something--I am not an expert. Maybe anyone on Social Security 
disability, their names could be given to local fire districts 
so that you would at least know geographically where they were 
located. So that after the storm, you could pinpoint in 
priority areas to search first, to check to help them out. I 
don't know.
    Senator Kohl. Would you say that if we were going to make 
meticulous preparation, we need to pinpoint where our seniors 
are, each and every one? Then, in the immediate aftermath of a 
catastrophe, go to each----
    Ms. Cefalu. I was thinking local fire departments. This is 
just off my head. Local fire departments in their fire 
districts, if they had the information on where the seniors 
were, maybe it is possible that once a year, there could be 
some contact. Do you have a place to go? Are you going to stay? 
Do you have family?
    We could locate, you know, the people like Maurice that 
aren't going to leave. Because there was also several other 
people, elderly people in his neighborhood that didn't leave 
either and are still there to this day, and they lived it out.
    So at least we would know where they were, where to go look 
for them.
    Senator Kohl. Very good.
    Well, we thank you both for being here today, and you 
provided--oh, Senator Collins is here. I am sorry.
    Before we move on, we would like to hear from Senator 
Collins for her comments and whatever thoughts, questions you 
have.
    Senator Collins. Thank you.
    I thought I showed up today in yellow, you know, so that 
people would see me.
    But first, let me thank you both for holding this hearing. 
The Homeland Security Committee, which I chair, spent 7 months 
looking at the preparation for and response to Hurricane 
Katrina, and we held 22 hearings. Of all those hearings, the 
one that bothered me the most was when we heard about nursing 
homes not being evacuated, and we learned that those left 
behind were primarily elderly and people with special needs. 
That troubled me so much.
    There was a real contrast between Mississippi and Louisiana 
in that regard because Mississippi forced the nursing homes to 
evacuate their patients. Louisiana chose not to. The result in 
Louisiana--and let me say I recognize that it is very difficult 
to evacuate fragile patients from nursing homes, and there are 
risks in that.
    But if you look at the outcome, you did not have the deaths 
among nursing home patients in Mississippi that you had in 
Louisiana. So, Ms. Cefalu, I wanted to start my questioning 
with you. Because you mentioned in your written statement, and 
I apologize for not being here earlier, that the evacuation 
process for nursing homes was inadequate.
    Have you seen a change post Katrina at the facility level 
in the area of emergency preparedness and response? For 
example, have there been discussions at the Ascension Care 
Center, and has the staff worked out what you think is a 
feasible evacuation plan for the facility?
    Ms. Cefalu. Absolutely not, Senator. Nothing.
    We have a book. Most nursing homes have a book. The 
evacuation book. When the State surveyors came in, they asked 
me where the book was. Since I was just filling in for the 
director of nurses, we found the book. Thank God. Never read 
the book. Embarrassing as it is, that is a reality.
    I live in St. Tammany Parish. St. Tammany Parish nursing 
homes have a volunteer emergency preparedness coordinator, Kim 
Harbison. We didn't lose anyone in St. Tammany Parish. We were 
evacuated like Mississippi because St. Tammany Parish evacuated 
as a parish to one school. It was pre-prepared, and everything 
was there.
    New Orleans, however, I believe it leaves it up--I am not 
the expert. I believe they leave it up to the individual 
nursing homes.
    Senator Collins. They do.
    Ms. Cefalu. In a large metropolitan area, you can't do 
that. You can't call them 72 hours before a disaster is in the 
Gulf or anywhere, mudslides, anything, and say you need some 
help because everybody is busy with their own preparedness.
    Also, that quick in New Orleans, you lose your employees. 
Without employees, you have no manpower to move everybody. So, 
no, New Orleans is far behind.
    Senator Collins. One of the recommendations that we have 
made in our report is that not only should every nursing home 
and hospital be required to have an evacuation plan, but that 
there should be an audit of it by the State once a year to make 
sure it exists, to make sure that people have read it, trained 
for it because this isn't something that does you much good if 
it is just on paper. You have to do the exercises and the 
training as well.
    But I think this is a huge issue. Of all the issue we 
looked it, it was the one that troubled me so much. So I am so 
glad you are doing follow-up on this issue. The more attention 
we can have, the better.
    I also want to follow up on the issue that both Senator 
Kohl and Senator Smith and our witnesses have raised about how 
do you know where those individuals with special medical needs 
or who our elderly are? We, again, have recommended exactly 
what you have instinctively suggested, and that is that there 
be lists of special needs patients, individuals who rely on, 
who need electricity----
    Ms. Cefalu. Oxygen.
    Senator Collins [continuing]. For their medical needs and 
that first responder agencies--the police, the firefighters--
have those lists, and that is a lot of work. It takes a lot of 
updating, obviously.
    But I think it would make a real difference so that when 
disaster strikes, we know who the vulnerable are, and we can 
send first responders. There has been so much discussion in the 
response to the Gulf that it was somehow race based on who got 
left behind. It wasn't. It was age based is what it was.
    It was those who were elderly, regardless of their race, 
who were left behind. It was those with special medical needs 
who were left behind, and it was those who could not evacuate 
themselves, for whatever reason, who were left behind.
    So I don't mean to take up too much time here, but thank 
you for holding this hearing. Thank you both for your 
testimony.
    I also want to say that Mr. Frisella's point about the pets 
was another issue that we found was very important. We had a 
mayor of a town in North Dakota come before us and say that you 
have to tell people to bring their pets, their pillows, and 
their pills. I thought that was a wonderful way----
    Ms. Cefalu. Pampers.
    Senator Collins [continuing]. To sum up, and we have got to 
be realistic about that. We have got to make sure that there 
are shelters that are prepared to take people with pets and to 
take people with special needs, and that wasn't the case with 
Katrina.
    So thank you for the work you are doing.
    The Chairman. I think the sound bite of the day is ``pets, 
pills, pillows, and pampers.''
    Senator Kohl. That is great. Well, we thank you, Senator 
Collins.
    You know, your point that it was age based and not race 
based was made dramatically by Mrs. Cefalu in her testimony. 
She said that of those who perished, 75 percent----
    Ms. Cefalu. Yes, sir.
    Senator Kohl [continuing]. Were 75 years or older.
    Ms. Cefalu. My husband gave me those statistics. Don't hold 
me to them.
    Senator Collins. That is stunning. It really is.
    Senator Kohl. It is stunning.
    Senator Collins. Thank you.
    Ms. Cefalu. Thank you very much.
    Senator Kohl. Well, we thank you both for coming. As you 
can see, you have made a big difference, and you have made an 
impact on us all.
    Ms. Cefalu. Thank you very much.
    Mr. Frisella. Thank you very much.
    Senator Kohl. So we turn now to our second panel. Our first 
witness will be Dan Sutherland of the Department of Homeland 
Security. Mr. Sutherland is the officer for the Office of Civil 
Rights and Civil Liberties. He also heads up DHS's Interagency 
Coordinating Council on Emergency Preparedness and Individuals 
with Disabilities.
    Mr. Sutherland is here to tell us of the department's 
efforts to prepare for the needs of seniors in the event of a 
national emergency.
    Second witness will be Cindy Bascetta of the Government 
Accountability Office. Ms. Bascetta is director of the health 
group at GAO and will be telling us about GAO's findings and 
recommendations on senior emergency preparedness.
    Next we will hear from Amy Aiken, the assistant director of 
the Miami-Dade Office of Emergency Management. Ms. Aiken is 
here to tell us about the initiatives her office is conducting 
to meet seniors' needs in an emergency.
    Finally, we would like to welcome Carmel Dyer of the Baylor 
College of Medicine. Dr. Dyer is a geriatrician and directs the 
geriatrics program for the Harris County Hospital District. She 
is here to tell us about her research and her recommendations 
on emergency preparedness for seniors.
    We thank you all for being here. Mr. Sutherland, we will 
hear from you first.

  STATEMENT OF DANIEL W. SUTHERLAND, OFFICER, OFFICE OF CIVIL 
RIGHTS AND CIVIL LIBERTIES AND CHAIR, INTERAGENCY COORDINATING 
    COUNCIL ON EMERGENCY PREPAREDNESS AND INDIVIDUALS WITH 
 DISABILITIES, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Mr. Sutherland. Thank you. I want to thank Senator Kohl and 
Senator Smith and the members of the Senate Special Committee 
on Aging for inviting me to testify on this extremely important 
topic today.
    The oversight in this area is very important and very 
welcome, and I just wanted to start by saying that we are 
enthusiastic about the recommendations that you outlined today. 
We will aggressively pursue them and will be very glad to sit 
and talk with you in the upcoming weeks and months so that you 
can be assured that we are really aggressively pursuing those 
recommendations.
    I am testifying today in my capacity as the officer for 
civil rights and civil liberties at the Department of Homeland 
Security. Our office is responsible for advising the leadership 
of our department on issues at the intersection of homeland 
security and civil rights and civil liberties.
    But I am also testifying in my capacity as the chair of the 
Interagency Coordinating Council on Emergency Preparedness and 
Individuals with Disabilities. Our council was created by an 
executive order that the President signed in July 2004. We have 
over 20 Federal agencies who are working aggressively on these 
issues. We have divided our work into nine key areas, such as 
emergency communications issues, transportation issues, 
evacuation issues.
    For the purposes of our work as a council, ``disability'' 
applies to a broad range of people, including individuals who 
use wheelchairs, crutches, or walkers because of physical or 
mobility impairments. Individuals who are blind or who have low 
vision. Individuals who are deaf or hard of hearing or deaf/
blind. Individuals who have arthritis and diabetes. Individuals 
who need oxygen because of respiratory conditions. Individuals 
with cognitive disabilities, dementia, including Alzheimer's 
disease and other mental illnesses. Individuals who live in 
nursing homes and assisted living centers and those with other 
physical or mental impairments that substantially limit a major 
life activity.
    We recognize that there are certainly many seniors who 
don't fall in these categories. However, the most vulnerable 
older Americans do fall within these categories and are a 
primary subject of our interagency council's work. In our first 
2 years of operation, almost 2 years of operation, our council 
has met several significant milestones.
    For example, we are participating now in the national plan 
review, which is a review of the emergency preparedness plans 
of all the States and the largest urban areas in the country. 
We are also participating in a number of hurricane preparedness 
exercises with experts, specifically focused on disability and 
aging issues. We have developed a Web-based resource center of 
educational materials, which I can refer to you later. We have 
also published a report on evacuation issues.
    When the hurricanes made landfall, our council immediately 
became a focal point for pleas for help and offers of support. 
We quickly formed what we call an incident management team of a 
number of people across the Federal Government who work on 
these issues, and we met regularly day after day with people in 
the region, by telephone or in person, and as a Federal 
incident management team.
    So, I would just take a few minutes to identify for you 
what we saw as the major issues that resulted from the 
hurricanes as they affected seniors in the disability 
community. First, the availability of durable medical equipment 
was a major issue. In other words, people who had wheelchairs, 
crutches, walkers, hearing aids, even hearing aid batteries, 
these things were lost during the evacuation.
    Second, evacuation was a major issue, and we have already 
heard and discussed that. That was particularly true of those 
who lived in institutional settings.
    The third major issue we saw was access to life-sustaining 
medications. People had to evacuate without adequate supplies 
of insulin, heart medicines, drugs for epilepsy, medicine for 
mental illnesses, and other things.
    The council's incident management team received a lot of 
calls about pharmacies out of State that would not respect or 
honor requests for medicines that came from people who had 
cards from the States of Louisiana and Mississippi.
    One of the leaders in our interagency council is Dr. Peg 
Giannini, who is sitting here in the front row. She leads the 
Department of Health and Human Service Office of Disability 
Policy. Because she was involved in our council and saw the 
issue, she was able to go to the leadership of the Centers for 
Medicaid and Medicare Services, who immediately issued guidance 
instructing pharmacies to respect those cards and honor those 
cards, and that they would be able to reimburse for those 
expenses.
    The next major issue is shelters, and the final issue I 
wanted to point out was accessible housing was a major issue. 
We began to realize that mobile homes, the manufactured homes 
that were being provided were not accessible. A person with a 
significant mobility impairment often could not get into the 
front door of many of these types of mobile homes they were 
making available. Once there, you may not be able to reach 
faucets, closets, or even get into bathrooms or bedrooms.
    Secretary Chertoff directed us to send an expert on 
disability issues to Admiral Allen's staff in Baton Rouge and 
to Admiral Hereth's staff in Austin. We sent an expert there 
who worked for several weeks primarily on these accessibility 
issues. Along with colleagues from HUD and the Department of 
Justice, we were able to change the specifications that FEMA 
was writing for the mobile homes to incorporate a number of 
accessibility features.
    Now let me just turn to some ways that the department and 
our interagency council is trying to address some of the issues 
with regard to seniors. The Departments of Homeland Security 
and Health and Human Services are co-sponsoring a large, 
Nation-wide conference on emergency management and individuals 
with disabilities and the elderly.
    This conference is going to be held here in Washington, 
June 28 through 30th. I personally have done probably 10 
conferences since Katrina, and we are all tired of conferences. 
So we decided, though, what we needed to have was we needed to 
get the people who do emergency planning and the people who are 
responsible for the aging community and the disability 
community in the room at one time.
    So what we have asked each Governor to do is send a 
delegation--someone from the State homeland security advisor; 
someone from the emergency planning or management officials, 
whoever they would want to designate; someone from the State 
aging committee; and someone from the Governor's special needs 
committee--and sit as a delegation.
    We have asked the Governors to expect that delegation to 
come back with concrete work products that will show that they 
are making changes.
    Second, we have included an expert on aging and emergency 
preparedness in our national plan review team. We expect that 
that NPR report, which will be issued to Congress and to the 
States, will be a catalyst for some very significant 
improvements on these issues.
    Third, we participated in a roundtable on seniors and 
emergency issues held by the AARP. I saw that outside they have 
issued a report on that conference that they held. We have 
contacted AARP in hopes of working with them.
    Senator, you referred to materials, technical assistance 
materials. We have created a resource center at 
www.disabilitypreparedness.gov. There we have tried to 
accumulate a lot of disability or senior aging specific 
documents and guides there.
    We have got documents from a lot of different 
organizations. But specifically on seniors, we have one page 
there, and there are documents from the U.S. Fire 
Administration, a report written by the International Longevity 
Center of the USA, and materials from AARP. We are anxious to 
find additional materials.
    The department's ready.gov initiative focuses or includes 
materials on seniors, and we are working on additional 
materials that ready.gov will be preparing, focusing 
specifically on the aging population.
    Finally, the Citizen Corps gives training to seniors all 
over the country, and our Community Emergency Response Team 
(CERT) training includes instruction on identifying and 
assisting seniors.
    In conclusion, I just want to say again that the 
Committee's oversight of these issues is very much welcomed. 
These are issues that Secretary Chertoff personally is very 
interested in and focused on and asked for direct reports from 
me on how we are making progress on specific items on a very 
regular basis.
    So, we welcome your oversight and your interest in this, 
and I appreciate the chance to testify. Thank you.
    [The prepared statement of Mr. Sutherland follows:]
    [GRAPHIC] [TIFF OMITTED] T8924.006
    
    [GRAPHIC] [TIFF OMITTED] T8924.007
    
    [GRAPHIC] [TIFF OMITTED] T8924.008
    
    [GRAPHIC] [TIFF OMITTED] T8924.009
    
    [GRAPHIC] [TIFF OMITTED] T8924.010
    
    [GRAPHIC] [TIFF OMITTED] T8924.011
    
    [GRAPHIC] [TIFF OMITTED] T8924.012
    
    [GRAPHIC] [TIFF OMITTED] T8924.013
    
    [GRAPHIC] [TIFF OMITTED] T8924.014
    
    [GRAPHIC] [TIFF OMITTED] T8924.015
    
    [GRAPHIC] [TIFF OMITTED] T8924.016
    
    [GRAPHIC] [TIFF OMITTED] T8924.017
    
    [GRAPHIC] [TIFF OMITTED] T8924.018
    
    Senator Kohl. Thank you very much, Mr. Sutherland.
    Now we will hear from Ms. Bascetta.

  STATEMENT OF CYNTHIA BASCETTA, DIRECTOR, HEALTH CARE, U.S. 
        GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Ms. Bascetta. Senator Kohl and Senator Collins, thank you 
for the opportunity to discuss our ongoing work on the 
evacuation of vulnerable populations due to hurricanes and 
other disasters.
    As you know, Hurricane Katrina highlighted the dire 
situation of hospital patients and nursing home residents who 
needed to be evacuated, as well as the vulnerabilities of 
transportation-disadvantaged people living in their own homes, 
especially the elderly and persons with disabilities.
    My remarks today focus on the challenges faced by States 
and localities and hospital and nursing home administrators 
facing evacuations, as well as a limit that we identified in 
the design of the National Disaster Medical System.
    My testimony is based onsite visits to Florida, 
Mississippi, California, and New York; numerous interviews with 
local, State, and Federal officials; and reviews of documents 
such as State emergency management plans and recently issued 
reports on the response to Hurricane Katrina.
    Our early work shows that States and localities face 
challenges in identifying transportation-disadvantaged 
populations, determining their needs, and providing for and 
coordinating their transportation. Compared to the general 
population, the elderly are more likely to have a disability, 
low income, or to choose not to drive. Meeting their diverse 
needs requires additional planning, time, and resources.
    For example, evacuating seniors with special medical needs 
could necessitate additional pickup routes, extra time to load 
and unload vehicles, and special resources, such as buses 
equipped with wheelchair lifts.
    So far in our review, we have noted that some emergency 
management officials did not yet have a good understanding of 
the dimensions of their transportation-disadvantaged 
populations. They, themselves, also acknowledged the need to 
better integrate them into emergency response planning.
    On the other hand, in some locations, emergency management 
officials have tried to better prepare vulnerable populations 
through community outreach activities or by working with home 
health organizations, physicians, and the Red Cross. Notably, 
one location with a very well developed program encouraged 
citizens with special medical needs to voluntarily register, 
and they also involved social service providers in emergency 
planning.
    Hospital and nursing home administrators face challenges 
whether they decide to evacuate or to shelter in place. Because 
of the risks associated with moving sick and frail people, 
sheltering in place is their preferred alternative. But this 
requires ensuring sufficient staff and resources are available 
to provide care during and in the aftermath of the storm until 
help can arrive.
    Evacuation is always a last resort and requires securing 
sufficient and adequate transportation. In the event of 
widespread disaster, we learned that local transportation 
contractors would be unlikely to have adequate capacity to meet 
the demand or might not have appropriate vehicles.
    One nursing home administrator told us, for example, that 
its contractor supplied regular buses, but its residents needed 
power lifts to accommodate their wheelchairs. A particular 
challenge for nursing homes that must evacuate is finding 
receiving facilities that can take their residents for 
potentially very long periods of time.
    One Florida nursing home had to relocate its residents for 
over 10 months while its facility was being repaired. We also 
found that nursing home administrators can't reduce the number 
of residents in their facilities because these residents have 
no other home in the community, and they can't care for 
themselves. In contrast, hospitals discharge as many patients 
as possible before an anticipated emergency.
    In our review, we also examined NDMS the National Disaster 
Medical System, a partnership of DOD, HHS, VA, and DHS that 
supplements State and local emergency response capabilities 
with Federal resources and services. NDMS supports the 
evacuations of patients needing hospital care by assisting in 
efforts to move patients from a mobilization center, such as an 
airport near the incident, to reception areas in other 
locations away from the disaster.
    NDMS agreements with participating hospitals give them the 
opportunity to be assured that the patients that they are 
moving can be put into an NDMS hospital and receive the 
continuing hospital care that they need.
    However, we found that NDMS was neither designed nor is it 
currently configured to assist in the evacuation of nursing 
home residents. While NDMS supported evacuation efforts that 
included nursing home residents during the recent hurricanes, 
it does not have agreements with nursing homes to receive 
evacuees.
    Our ongoing work will continue to examine ways to reduce 
the vulnerabilities of hospital patients, nursing home 
residents, and transportation-disadvantaged people. The need 
for improvement is obviously urgent with hurricane season just 
around the corner.
    I would be happy to answer any questions that you might 
have.
    [The prepared statement of Ms. Bascetta follows:]
    [GRAPHIC] [TIFF OMITTED] T8924.019
    
    [GRAPHIC] [TIFF OMITTED] T8924.020
    
    [GRAPHIC] [TIFF OMITTED] T8924.021
    
    [GRAPHIC] [TIFF OMITTED] T8924.022
    
    [GRAPHIC] [TIFF OMITTED] T8924.023
    
    [GRAPHIC] [TIFF OMITTED] T8924.024
    
    [GRAPHIC] [TIFF OMITTED] T8924.025
    
    [GRAPHIC] [TIFF OMITTED] T8924.026
    
    [GRAPHIC] [TIFF OMITTED] T8924.027
    
    [GRAPHIC] [TIFF OMITTED] T8924.028
    
    [GRAPHIC] [TIFF OMITTED] T8924.029
    
    [GRAPHIC] [TIFF OMITTED] T8924.030
    
    [GRAPHIC] [TIFF OMITTED] T8924.031
    
    [GRAPHIC] [TIFF OMITTED] T8924.032
    
    [GRAPHIC] [TIFF OMITTED] T8924.033
    
    [GRAPHIC] [TIFF OMITTED] T8924.034
    
    [GRAPHIC] [TIFF OMITTED] T8924.035
    
    Senator Kohl. We thank you very much for your testimony.
    We would like to hear from Amy Aiken right now.
    Senator Nelson. Mr. Chairman? Before----
    Senator Kohl. Senator Nelson, go right ahead.
    Senator Nelson. If I could say, because Ms. Aiken is from 
Florida, and we have a little bit of experience in hurricanes 
in Florida, and it is starting very shortly with the season 
starting June 1. I just want to say, before she testifies, that 
they have really gotten ahead of this down there.
    Now we had a painful experience a long time ago, 1992. A 
mega hurricane, Hurricane Andrew. There were a lot of mistakes 
made. We learned from those mistakes. Then we were hit with 4 
hurricanes within a 6-weeks period just 2 years ago in 2004.
    So, Florida, of necessity, has had to get out in front of 
this. What they do is they map out where senior citizens are so 
that they have a location that by the time that they are ready 
to evacuate, they have predetermined locations to take buses 
to, to get senior citizens evacuated.
    I wanted to compliment Amy and Miami-Dade County and what 
they have been doing. That is why I wanted to come over here. I 
have got to run back to another committee meeting right now, 
but I wanted to state that for the record.
    Senator Kohl. We thank you very much, and that is a very 
important point in this whole question of preparedness is 
advance work, as you are pointing out, to be sure. Once the 
hurricane hits, if we haven't prepared, it is really too late, 
isn't it?
    Senator Nelson. Especially in a peninsula like Florida, 
where you have 6 million people living in south Florida, and 
here comes the hurricane. Of course, the natural tendency of 
people are is to wait until the last minute because they are so 
accustomed to thinking that it is suddenly going to veer and go 
off in a different direction, and then people wanting to get 
out of Dodge. Then, of course, it is gridlock with the few exit 
routes that are available.
    You know, even in north Florida back in the late 1990's--
and I lived through all of this because, at the time, I was a 
member of the Florida cabinet, which also, as State treasurer, 
was insurance commissioner. So I was involved in this up to my 
eyeballs.
    We had an evacuation with a storm headed toward north 
Florida, Jacksonville. It ultimately veered off. But in an 
evacuation 2 days before, it was total gridlock. People could 
not move.
    That finally prompted the Florida Highway Patrol to work 
out a plan where they could make the interstate all one way. 
But you can imagine the frustration of sitting in gridlock not 
going anywhere for 12 hours on 2 lanes of the interstate while 
the other 2 lanes, there is no traffic whatsoever.
    So, there are a lot of things that we have had to confront 
but, fortunately, are finally getting our arms around it.
    I would just say, Mr. Chairman, as we approach June 1 of 
this year, hurricane season, thank goodness I am not insurance 
commissioner anymore. [Laughter.]
    Senator Kohl. Great. Thank you so much, Senator Nelson.
    Amy, we would like to hear from you.

   STATEMENT OF AMY B. AIKEN, ASSISTANT DIRECTOR, MIAMI-DADE 
           OFFICE OF EMERGENCY MANAGEMENT, MIAMI, FL

    Ms. Aiken. Thank you, Senator.
    Good morning, Mr. Chairman and members of the Committee. I 
would like to thank you for this opportunity to share some of 
Miami-Dade County's disaster preparedness initiatives, 
particularly as they relate to our seniors.
    I would also like to commend you, Senator Kohl and Senator 
Smith, and the members of this Committee for convening this 
hearing that is seeking to move forward disaster preparedness 
for seniors.
    During the 2004 hurricane season, Miami-Dade County 
activated its emergency operations center four times for 
hurricanes. We did it again four more times in 2005. So we have 
had some practice.
    While many of the initiatives about which I will speak 
today were developed because of our experience with hurricanes, 
Miami-Dade County utilizes an all-hazards approach for 
emergency management. It must be ready for any disaster, not 
just hurricanes.
    One of the principal lessons learned from the 2005 
hurricane season was that no matter what happens in the county, 
it is and will ultimately be the county's responsibility to 
respond to and recover from any disaster that affects its most 
vulnerable residents.
    Back-to-back storms within a matter of weeks and widespread 
extended power outages in 2005 raised our awareness that the 
programs Miami-Dade County already had in place were inadequate 
to care for our most vulnerable residents, particularly our 
seniors during a disaster.
    Many nongovernmental agencies and individuals seek to 
assist, but if this assistance is not well coordinated, it may 
lead to duplication of efforts and gaps in services. Volunteer 
Organizations Active in Disaster, or VOAD, a national program, 
exists to coordinate such efforts. Miami-Dade County is 
reestablishing its VOAD program.
    Many of the calls received by our 311 call center during 
activation came from residents, particularly seniors who simply 
needed reassurance. Miami-Dade County has since established a 
telephone reassurance program, letting individuals know that 
they are not alone during times of disaster.
    Florida law mandates that all assisted living facilities 
and nursing homes have disaster plans in place that are 
reviewed by their respective county's office of emergency 
management and are enforced by the Agency for Health Care 
Administration.
    Florida law also mandates that each county maintains a 
special needs registry. These are data bases of homebound 
seniors who may need assistance with daily living, require 
skilled nursing care, or need life-saving medical equipment 
dependent upon electricity.
    Realizing that many residents, in particular seniors, will 
not evacuate without their pets, Miami-Dade County opened its 
first pet-friendly shelter last year and is working with Miami-
Dade County Public Schools to identify additional locations for 
pet-friendly shelters throughout the county.
    Low-income elderly residents in Miami-Dade County can take 
advantage of the county's residential shuttering program. This 
program enables homeowners to receive custom-made shutters at 
no cost and assistance, if needed, to put up and take down the 
panels.
    South Florida has the most stringent building codes in the 
Nation for wind storm protection. Other hurricane-prone areas 
should be encouraged to revisit their building codes and 
consider replicating south Florida's. Areas prone to other 
types of disasters, such as earthquakes, wildfires, or 
flooding, should consider a review and possible strengthening 
of building codes specific to the disasters most likely to 
occur in that particular area. Building codes work.
    In addition to its stringent building codes, Miami-Dade 
County's local mitigation strategy has completed $36 million in 
wind storm mitigation projects and another $128 million in 
flood mitigation. Hundreds more projects are already in 
progress or under development.
    During the 2004 and 2005 hurricane seasons, not a single 
facility mitigated through the LMS incurred any damage other 
than a few loose roof tiles or scraped paint. Mitigation works.
    Miami-Dade County has learned that the only way to ensure 
the prompt coordinated response that our community has come to 
expect and deserves is to continue to strengthen partnerships 
with local, State, and Federal Government agencies; public and 
private agencies; nonprofit organizations; and, most 
importantly, our 2.5 million residents. Disaster preparedness 
is everyone's responsibility.
    However, all cities, counties, and States are not the same, 
and these differences must be considered throughout all phases 
of emergency management from preparedness and mitigation to 
response and recovery.
    I invite you, Mr. Chairman, and members of this Committee 
to visit Miami-Dade's emergency operations center. Senator 
Nelson and Senator Martinez, both from our State, have been 
there many times, and we look forward to visits from you and 
other members of this Committee.
    Miami-Dade County is ready and willing to share and learn 
from any efforts that will enhance disaster preparedness for 
all.
    Thank you again for this opportunity to be a part of a 
process that is seeking to move forward disaster preparedness 
for our seniors.
    [The prepared statement of Ms. Aiken follows:]
    [GRAPHIC] [TIFF OMITTED] T8924.036
    
    [GRAPHIC] [TIFF OMITTED] T8924.037
    
    [GRAPHIC] [TIFF OMITTED] T8924.038
    
    [GRAPHIC] [TIFF OMITTED] T8924.039
    
    [GRAPHIC] [TIFF OMITTED] T8924.040
    
    [GRAPHIC] [TIFF OMITTED] T8924.041
    
    [GRAPHIC] [TIFF OMITTED] T8924.042
    
    [GRAPHIC] [TIFF OMITTED] T8924.043
    
    [GRAPHIC] [TIFF OMITTED] T8924.044
    
    [GRAPHIC] [TIFF OMITTED] T8924.045
    
    [GRAPHIC] [TIFF OMITTED] T8924.046
    
    [GRAPHIC] [TIFF OMITTED] T8924.047
    
    Senator Kohl. Thank you. That is a very fine statement, and 
I would like to return to you after we hear now from Dr. Dyer.

STATEMENT OF CARMEL BITONDO DYER, M.D., ASSOCIATE PROFESSOR OF 
   MEDICINE, DIRECTOR, BAYLOR COLLEGE OF MEDICINE GERIATRICS 
  PROGRAM AT THE HARRIS COUNTY HOSPITAL DISTRICT, HOUSTON, TX

    Dr. Dyer. Good morning, Ranking Member Kohl. I appreciate 
the fact that you are holding this hearing and for the 
opportunity to testify today.
    I am Dr. Carmel Bitondo Dyer, and I am a geriatrician from 
Baylor College of Medicine, a member of the American Geriatric 
Society, and chief of geriatrics at the Harris County Hospital 
District.
    You may know that the American Red Cross set up the shelter 
facilities for Katrina evacuees in Houston, and the Harris 
County Hospital District set up a comprehensive MASH unit for 
medical treatment for the Katrina evacuees.
    What you may not know is that 56 percent of those seen in 
the medical MASH unit were over the age of 65. I had the 
privilege of caring for a number of senior Katrina survivors, 
and I would like to share with you today an onsite solution we 
developed and some recommendations that we have since 
formulated.
    In Houston, we saw confused, disoriented people who didn't 
even know where they were, bilateral amputees and wheelchair-
bound patients who couldn't access the bathing facilities on 
the second floor. We saw seniors exploited when their FEMA 
checks were stolen, and we saw people promised suitable housing 
that wasn't. Also, the cognitively impaired and functionally 
impaired people were just interspersed among the 20,000 other 
folks that were staying in the shelter.
    Now we are not critical of the valiant efforts made in 
Houston. The real mistake would be not to learn from those 
experiences. So, I would humbly like to recommend a few things.
    The first is that in any disaster shelter situation that 
there be separate sites for seniors to facilitate service 
delivery.
    The second recommendation is that we must build in 
protections for fraud and abuse. For instance, these special 
list patients that are being circulated, they cannot get in the 
hands of predators.
    The third is that we must develop a common language to use 
across jurisdictions. So how do we know that the special needs 
persons in Texas are defined in the same way as they are in 
Florida? We have developed such a tool called the SWIFT, and 
you may have copies of it in front of you, Seniors Without 
Families Triage.
    What we did onsite in Houston was to categorize the seniors 
that were impaired into three groups--mild, moderate, and 
markedly impaired--so that we could determine type of services 
that they needed. It takes only 5 minutes to administer, and it 
was used all across the State in different shelters.
    What we are recommending is that this tool be adopted 
Nation wide, and it can be used in the pre- and the post 
disaster period.
    The last recommendation I would like to make is that more 
geriatricians and gerontologists be involved in these disaster 
preparedness efforts. I mean, nobody would put together a 
public health program for children without tapping the 
expertise of pediatricians. Nor should we put together 
emergency care plans that involve seniors without consulting 
geriatricians and gerontologists.
    Geriatricians and gerontologists should be involved in 
every aspect of emergency care, including planning, care 
delivery, and training of the front-line workers. Of course, 
there is not quite enough of us to go around.
    These and other recommendations are going to be published 
by us in just a few weeks in conjunction with the American 
Medical Association and the AARP. We support Resolution 25 of 
the 2005 White House Conference on Aging, which calls for 
coordinated Federal response.
    On behalf of the SWIFT team and the American Geriatric 
Society, I want to thank you for holding this hearing. Also we 
hope that this testimony helps the Federal effort to devise an 
emergency preparedness plan that both anticipates and meets the 
needs of America's seniors.
    Thank you.
    [The prepared statement of Dr. Dyer follows:]
    [GRAPHIC] [TIFF OMITTED] T8924.048
    
    [GRAPHIC] [TIFF OMITTED] T8924.049
    
    [GRAPHIC] [TIFF OMITTED] T8924.050
    
    [GRAPHIC] [TIFF OMITTED] T8924.051
    
    [GRAPHIC] [TIFF OMITTED] T8924.052
    
    Senator Kohl. Very good statement. We appreciate it very 
much, and we will return to you in a minute.
    Mr. Sutherland, we understand that the Department of 
Homeland Security includes seniors under the umbrella of 
individuals with disabilities when planning for emergencies. 
Surely you would agree that while some seniors are disabled, 
many older people--like Maurice from our first panel--are not. 
They might and most probably do live alone, or they need help 
with transportation or supplies, and they are not disabled.
    So why would the DHS group all seniors into the same 
category as disabled? What steps is DHS taking to include those 
seniors who are not disabled, but obviously will be in great 
need in an emergency?
    Mr. Sutherland. Thank you, Senator.
    The department looks at preparedness across the entire 
population. In our context, www.disabilitypreparedness.gov, 
there is a page that relates to seniors. It is the information 
that is contained there would not relate just to seniors with 
disabilities, but would contain information that relates to all 
seniors.
    So we need to make sure that that information is available 
in other contexts because a senior without a disability 
wouldn't necessarily think to go to that particular place. So 
ready.gov has information like that--you know, that is specific 
to seniors--and is working on some additional work as well.
    I will just show you an example of some of the materials 
that we have. This is something that was prepared by a 
coalition of private disability-focused organizations, and it 
is just a small thing. It is tips for first responders. They 
put it like this so that it can be easily carried around, and 
it is in laminated cards.
    But the very first page in here is tips for seniors, how to 
deal with seniors. Not necessarily seniors with disabilities, 
but seniors in general. Then there are pages on people with 
service animals and people with mobility impairment. So it is 
more specific.
    So I think it is, your point is excellent. We have to 
recognize that there are overlaps between seniors and 
disability, but there are differences as well, and we have to 
recognize that.
    Senator Kohl. Mr. Sutherland, if a catastrophe like Katrina 
occurred next week or 2 weeks or 3 weeks from now, what would 
be different in terms of your response from a year ago?
    Mr. Sutherland. Well, Senator, I have been thinking about 
that myself, and we are really focused on June 1, the beginning 
of the hurricane season, to make sure that we have a number of 
deliverables in place. I think a lot of the issues that have 
been raised today, in all honesty, are complex and require 
long-term solutions.
    I can tell you some things would definitely be different. 
For example, we have an incident management team that is set up 
that is across the Federal Government that will work on and 
respond to these issues.
    We have the National Response Plan review that is a report 
that will be coming to Congress in the first part of June that 
we have gone through. As I said earlier in my testimony, about 
10, maybe 11 large States and 10 or 11 large cities, and we 
have come up with an assessment tool. How do we assess the 
emergency operations plan for the State of X to decide whether 
it is really adequate or sufficient as it relates to people 
with disabilities or people from the aging community in a 
variety of subcategories there?
    We believe the kind of guidance that is going to come out 
of that report will really influence the debate and influence 
how State and local emergency planners are writing their plans 
and are assessing how to change their plans so that they 
accurately react to emergencies.
    We created a disability resource center that we think is 
going to really significantly help on the preparedness side of 
things in terms of both emergency responders and senior 
citizens.
    I know, just anecdotally, there is quite a bit of thought, 
interest, and energy on these issues. For example, the National 
Hurricane Conference was just held, and they invited me to come 
down and give a keynote address at the National Hurricane 
Conference, which they have never done. They have never focused 
in the plenary session on emergency preparedness and the aging 
community and people with disabilities.
    We have meetings on these issues all the time, experts like 
these folks who are now focused on these issues. So there is 
quite a bit of energy and interest, and I am optimistic that we 
would see some dramatic changes in the short run. But this is a 
long-term problem that we really have to stay focused on for 
many years.
    Senator Kohl. Ms. Aiken, you particularize things that have 
been done in Miami-Dade County area, and I was very impressed 
to hear about all of the things in detail that you put in place 
that you fully expect to really mitigate the effect of any 
hurricane.
    Are you asserting that while nothing is perfect, and 
certainly there is no way of avoiding tragedy when hurricanes 
like Katrina strike, that within those parameters, do you feel 
that you have or you apparently do feel that you have put in 
place several things that will make a big difference if and 
when a hurricane strikes?
    Ms. Aiken. Yes, Senator. Miami-Dade County, as Senator 
Nelson mentioned, we have been forced to kind of get good at 
this because we are subjected to many hurricanes.
    Every hurricane that comes through, every disaster, every 
exercise or drill that we do, we learn from it. No matter how 
many times we do it, there are always things that we will 
continue to work on to improve.
    So, yes, we are hoping that the systems we have in place 
are better than the systems last year, but we are not there 
yet, and we will continue to move forward.
    Senator Kohl. When you look at Katrina, as I am sure you 
have, and you have thought about it in great detail, would you 
say that they were really totally unprepared to deal with the 
disaster?
    Ms. Aiken. I can only speak about Katrina from a Miami-Dade 
County standpoint. I wasn't in New Orleans. I wasn't in the 
Gulf States. So it is unfair of me to take a look at that and 
not actually being there. I know that when something major is 
impending upon your community, if you don't have systems in 
place beforehand, it is very difficult to get those up and 
running when it is kind of looming at your door.
    Because even when you do have systems in place, it is a 
disaster. So, those plans that you have, that you look at and 
you have tested, they don't always go forth as well as you 
would like them to do.
    But it is very important that you do that preplanning and 
have some systems in place because when it is all going kind of 
haywire, you have to have some things that you can fall back on 
and know that your folks are trained and are prepared to deal 
with.
    Senator Kohl. For the three of you, do you feel that these 
issues must be dealt with to a considerable extent at the local 
level. That preparedness, in particular, must be tailored to, 
and you follow positions that are national in terms of knowing 
what the major issues are. But that each community, each 
county, each State must take into consideration their situation 
and be certain that they have plans in place to deal with these 
disasters when they occur.
    Ms. Bascetta.
    Ms. Bascetta. Yes, I certainly would agree with that and I 
think that emergency managers would agree that the first 
responders are the locals. Even under the best-laid plans, it 
would take a certain amount of time for the State and the 
Federal Government to be able to arrive and assist.
    But as we pointed out in testimony earlier this year for 
Senator Collins, you know, probably the single most important 
thing is to have clearly defined and communicated leadership 
and lines of authority well in advance of an event, especially 
an event that is catastrophic.
    Defining that point at which we have a catastrophe, where 
the States are overwhelmed, also needs much more attention 
because we don't want to be in a position again where we are 
waiting for the States to ask for assistance when, in fact, the 
Federal Government should be better positioned to lean forward 
with its assets.
    Senator Kohl. Dr. Dyer.
    Dr. Dyer. Well, I agree that some things have to be done at 
the local level just depending on the number of people, and how 
many are rural, how dense the urban areas are. However, I think 
the Federal Government can set standards.
    I mean, before Katrina, there was a standard that all 
nursing homes had to have--and this was a Medicare 
requirement--had to have an evacuation plan. But what did that 
mean? What were the specifics of that plan? It was vague.
    So, I think it behooves the Federal Government to set the 
minimum standards that would provide safety for all residents 
and then the individual sites to tailor those requirements, but 
at least meet the minimum standards.
    Senator Kohl. What is the most important single thing that 
the Federal Government must do in order to prepare our seniors 
for the next disaster? What would you suggest, Ms. Aiken?
    Ms. Aiken. I think it is very important that the Federal 
Government continue to support the State and local. Your 
earlier question saying do you believe that the locals--all 
disasters are local. I mean, when you talk to the locals, they 
begin they are all local. However, it needs to continue with a 
partnership with the States and with the Federal Government.
    As I stated earlier in my testimony about the mitigation, 
mitigation does work. So if the Federal Government can continue 
to support programs such as those, the local mitigation 
strategies that have been proven to make a difference, 
obviously, it is going to take funding dollars to do that. But 
if the dollars are well spent in advance, they are better spent 
dollars than they are spent post event.
    Senator Kohl. Mm-hmm. Ms. Bascetta?
    Ms. Bascetta. With regard to the elderly living in their 
own communities, our ongoing work is identifying best practices 
in some communities, such as Florida, which is known as the 
gold standard. Getting the word out to other communities about 
those best practices is very important.
    For those in hospitals and nursing homes, paying more 
attention to the role of the NDMS and ensuring that the NDMS is 
adequately resourced and able to meet the demands of evacuation 
is very important.
    I might point out that in the national plan review that Mr. 
Sutherland referred to, by far, the evacuation annex was what 
both States and cities were still considering most problematic. 
I believe that the numbers were 11 percent of States and 9 
percent of cities were confident that they would be able to 
handle an evacuation, and the rest were not comfortable yet.
    Senator Kohl. Hmm, very interesting.
    Dr. Dyer.
    Dr. Dyer. Well, I think that we need to focus on the most 
frail because people that have mental capacity, like Mr. 
Frisella, they can make their own decisions. But we have to 
help those who cannot fully take care of themselves. Either 
they are not able because of functional impairment to evacuate, 
or they don't have the cognitive ability to plan and take all 
the steps in sequence to get out. We have to focus attention on 
those ultra most vulnerable group.
    Senator Kohl. Ms. Aiken, how successful is your county's 
special needs registry, and do you believe that we could or 
should attempt to replicate it in other places?
    Ms. Aiken. Yes, I do believe that it can be replicated in 
other places, and I believe that it should be. The special 
needs registry is a registry for the homebound seniors that may 
need that special assistance in daily living, electricity 
dependent, or skilled nursing care, the most frail and 
vulnerable of our population.
    But if you don't know where they are and who they are, we 
are not going to be able to get to them. With our registry, we 
know exactly who these people are. We know exactly where they 
are, and we have very specific plans in place to be able to 
evacuate them well in advance of a general evacuation because 
it is time consuming to get them out of there.
    They know where they are going in advance. Nobody really 
wants to leave their home, but it is incumbent upon them to 
actually get out of there because it becomes a life safety 
issue.
    If they know in advance what type of transportation is 
going to show up, that the transportation is actually going to 
show up at their door, they are going to be called in advance. 
They know it is coming. They know the facility that they are 
going to. While it is not ideal, at least it gives them some 
assurance that they are just not going to be thrown on an 
inappropriate bus and stuck somewhere where they are not 
comfortable.
    So, yes, I do believe that it can be and it should be 
replicated.
    Senator Kohl. How many people are in that registry? Do you 
have an idea?
    Ms. Aiken. Right now, we have about 1,500 people in that 
registry, which we are continuing to add numbers to it all the 
time. It is incumbent upon the individual, though, to register.
    FP&L, Florida Power and Light, sends out every year in its 
billing at the beginning of June information about the special 
needs program. So everybody that is receiving an electric bill 
is receiving information about that program, and it says to 
call your local office of emergency management to register.
    Miami-Dade Office of Emergency Management has a full-time 
community preparedness person whose primary function is getting 
out there and educating the community, particularly our more 
vulnerable population, such as our seniors and those with 
special needs, about the initiatives that the county has in 
place and about the programs that are out there and available 
for them to take advantage of.
    So we try to get the information out. But again, it is 
incumbent upon that individual sign up for that registry.
    Senator Kohl. Any other comments any of you would like to 
make?
    Mr. Sutherland, you would like to say something?
    Mr. Sutherland. Senator, you had asked about the Federal 
response, and I wanted to echo that I think this whole area is 
a shared responsibility.
    We looked back at Katrina and tried to come up with lessons 
learned. As we did, we started to note, started on a legal pad 
on my desk, and we have turned it into a document that 
eventually we will publish publicly, but what needs to change 
here?
    We came up with certain ideas that FEMA needs to make some 
changes. We came up with some ideas that our Preparedness 
Directorate needs to make some changes. We came up with some 
ideas that my own office, we need to do better at or some of 
our Federal partners.
    But we also included or noted that there were things that 
needed to go better at the State and local level, things that 
needed to go better with Red Cross, and some things that the 
disability and aging communities need to address themselves. 
Things you need to do better. You need to take on this 
responsibility.
    So there is a shared responsibility there. For our 
purposes, I think the three major areas that we are focusing on 
is preparedness, preparedness, preparedness. We are trying to 
get people prepared. That would be the first area.
    Second, stimulating best practices. Identifying places 
where things are working and stimulating that and replicating 
that and letting people know about that.
    The third is getting subject matter experts on these issues 
institutionalized into the emergency management structure. For 
example, the joint field office, which is set up to respond to 
emergencies, did not have a subject matter expert on disability 
and aging issues.
    After Katrina, Secretary Chertoff recognized we needed 
somebody, and he sent a memo to me and Chief Paulison and said 
get someone there. We got someone there, and it has now been 
institutionalized in the JFO structure. There are other ways 
that we need to do that as well.
    So I appreciate the chance to just outline maybe where we 
are going over the next few months as well.
    Thank you.
    Senator Kohl. I thank you.
    Well, I believe that this panel has been very useful in 
many ways. In particular, I am impressed by what local 
governments are doing, and we all recognize how important local 
governments are in preparing for disasters.
    I have my concerns, as I think all Americans do, post 
Katrina about Federal Government's preparedness and ability to 
respond this year. You have pointed out, Mr. Sutherland, that 
this is a long-term project, and it is. But when disaster hits, 
it is a short-term catastrophe that must be dealt with. It 
doesn't do any good to have programs that will kick in some 
years down the road when a natural disaster hits.
    I think we are all worried--I am sure you are--we all are--
that we are even today woefully unprepared for another natural 
disaster. That is the purpose of this hearing as it affects our 
seniors.
    I am looking forward to and very hopeful that we can have 
not only an ongoing relationship, but one that is tinged with a 
sense of urgency to get prepared. So that when we do have 
another natural disaster, we can be proud of the response at 
the Federal level as well as at the local level.
    So let us all beware and take heed that we do not have 
another Katrina. It would be, indeed, a real tragedy if that 
occurred, and we want to do everything that we can to prevent 
it.
    I want to thank you all for being here. I am most impressed 
with your comments, and I think you do have a sense of urgency 
about doing what needs to be done as quickly as possible 
because I think you recognize how bad it will be if we don't do 
it. So, your contributions are invaluable, much appreciated.
    We thank you all for coming, and we stand adjourned.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              


              Prepared Statement of Senator Susan Collins

    Mr. Chairman, thank you for calling this hearing to examine 
ways to strengthen our emergency preparedness and response 
systems so that they are more sensitive to the special needs of 
seniors.
    The question posed in the title of this morning's hearing 
is clearly rhetorical. Obviously, we not only can do better, 
but we must do better if we are to avoid the horrible human 
suffering left in the devastating wake of Hurricane Katrina. 
While Katrina would have been a terrible national incident 
given its strength, size and intensity, it became a far more 
devastating disaster because of the failure of preparedness and 
response at all levels of government. And tragically, the brunt 
of this failure was born disproportionately by our nation's 
most vulnerable citizens, including our seniors and the 
disabled.
    Just a few days after Hurricane Katrina struck, the 
Majority Leader asked the Homeland Security and Governmental 
Affairs Committee, which I chair, to conduct an investigation 
into the government's preparation for an response to Hurricane 
Katrina and to make recommendations that would help ensure that 
America is better prepared the next time a disaster strikes--
whether it be predicted, as it was in the case of Hurricane 
Katrina, or a terror attack for which we have no warning. The 
committee's Ranking Member, Joe Lieberman, and I agreed to take 
on this task in a thorough and bipartisan manner.
    Over the past seven months, our committee held 22 hearings, 
where we heard from 85 witnesses, our staffs conducted more 
than 325 formal interviews, and reviewed over 838,000 pages of 
evidence. Our findings over these seven months of hard work 
resulted in an exhaustive report titled ``Hurricane Katrina: An 
Nation Still Unprepared.'' The findings of our investigation 
are reflected in the very name of our report.
    Throughout our investigation, we found clear evidence of 
failures of planning; failures in decision-making; a failure to 
create a coordinated national response system, and most of all, 
a failure of leadership at all levels of government.
    One of the most troubling findings of our report was the 
failure to evacuate nursing homes in Louisiana. This 
undoubtedly led to the loss of dozens of lives of an already 
vulnerable population.
    As a consequence, one of the key recommendations in our 
report calls on the Department of Homeland Security to ensure 
that State and local governments have evacuation plans that 
address the special challenges posed by hospitals, nursing 
homes, and individuals with special needs, like the elderly. 
The report also recommends that the State agencies responsible 
for licensing hospitals and nursing homes ensure that those 
facilities have evacuation plans and audit them annually, 
including an evaluation of the availability of transportation 
resources.
    Mr. Chairman, this morning's hearing will help to highlight 
the special challenges that the elderly face during a national 
disaster. It will help us in our effort to build and maintain a 
true national emergency planning and response system that is 
sensitive to the needs of our most vulnerable citizens.
                                ------                                


               Prepared Statement of Senator Mel Martinez

    I would like to thank Ranking member Kohl for having this 
hearing. It is important to focus on the unique needs of the 
elderly in times of natural disasters. I feel strongly that my 
state of Florida and Governor Bush illustrate the way local and 
state governments most effectively prepare for crises and the 
proper role of the federal government. As senator from a state 
that has experienced seven hurricanes and two tropical storms 
in the last 2 years, I urge you to consider the successes and 
challenges Florida faces when a natural disaster occurs.
    Florida's Department of Elder Affairs (DOEA) and its CARES 
(Comprehensive Assessment and Review for Long-Term Care 
Services) staff respond following hurricanes and natural 
disasters to assist Florida's elders throughout the state. 
CARES staff are trained and certified in completing 
assessments, evaluating medical needs and providing placement 
recommendations for clients.
    CARES staff respond following natural disasters providing 
discharge planning services in Special Needs Shelters (SpNS) to 
ensure the safe placement of residents. CARES staff also aid 
Assisted Living Facilities, Nursing Homes and Emergency 
Operations Centers (EOC) with placement of elderly residents.
    CARES staff contact existing clients to ensure their safety 
and assist local service providers in the delivery of food and 
water. During the 2004 hurricane season, approximately 92 CARES 
staff completed 5,354 hours of service responding to Hurricane 
Charley, Frances, Ivan and Jeanne. In 2005 hurricane season, 
approximately 48 CARES staff completed 1,321 hours of services 
responding to Hurricane Katrina and Wilma.
    I am especially looking forward to the testimony today from 
Ms. Amy Aiken, the Assistant Director of the Miami-Dade Office 
of Emergency Management, and having her elaborate on some of 
the things that the state is doing in regards to emergency 
preparedness and have been doing ever since Hurricane Andrew 
hit back in 1992.
    Again, I thank the committee for its time and attention to 
this matter and look forward to the testimonies before us. 
Thank you.
                                ------                                


               Prepared Statement of Senator Ken Salazar

    I would like to thank Chairman Smith and Ranking Member 
Kohl for holding this important hearing. Hurricane Katrina 
illustrated to us all that current planning, infrastructure, 
and leadership in the event of a national emergency is far from 
where it needs to be to adequately protect our citizens.
    We must move forward to improve our ability to effectively 
prepare for future disasters, we must learn from the mistakes 
of the past, and we must pro-actively seek real solutions to 
those mistakes to ensure they are not repeated. This hearing is 
an important opportunity to identify the specific needs faced 
by seniors during a natural or manmade disaster, consider 
recommendations, and assess the progress that has been made 
thus far in learning from past mistakes to ensure that our 
seniors are properly taken care of in the event of future 
emergencies.
    As we know, the special needs of senior citizens pose 
distinct challenges for any national emergency preparedness and 
response plan.
    In emergency situations, seniors face a terrible risk of 
being injured, trapped in their residence or perishing as a 
result of disasters. Among those who did not survive Hurricane 
Katrina, 75% were 75 years and older, and 65% of those who died 
at the Astrodome in Houston were 65 years and older.
    Transportation is one of the difficult issues that must be 
addressed. In the event of an evacuation, transporting senior 
citizens in a manner that is timely and safe can make the 
difference between life and death. We know from Hurricane 
Katrina that nursing home operators were faced with making a 
difficult determination of whether to evacuate, and if so, how 
and when. What tools could be provided so that operators in 
similar situations in the future are better equipped to act in 
the best interest of the seniors in their care?
    Almost every year, my home state of Colorado experiences 
forest fires that create risks for our Seniors living in 
affected communities.
    With limited resources, it is often difficult to assist and 
rescue our elders living in remotes ranches or homes in the 
Rockies. However, with planning and preparation, we can ensure 
that the manpower, vehicles, plans, and other necessary 
resources are readily available to these Seniors.
    Seniors also have diverse medical needs that must continue 
to be met during a disaster. As Ms. Cefalu's testimony will 
indicate, in the wake of natural disaster in the Gulf, nurses 
and doctors were called upon to treat and diagnose seniors 
without a knowledge of the patient's medical background, 
current diagnoses, or what medication or treatments the patient 
requires.
    As the gerontologists on this panel will confirm, a one-
size fits-all structure for medical treatment does not meet the 
specific medical needs of senior.
    Emergency response plans must include first responders and 
medical professionals who are trained in geriatric medicine. 
Dr. Bitondo's testimony of treating elderly Katrina evacuees at 
the AstroDome in Houston is an example of how people with 
medical needs can be organized to ensure that seniors, who 
often require geriatric specific treatments, receive 
appropriate care from someone trained in geriatric medicine.
    America has a duty to protect and care for ALL of its 
citizens in the event of a national disaster: rich and poor, 
healthy and sick, young and old. Over the next 25 years, the 
number of Americans over the age of 65 is expected to double.
    As the United States continues to age, it is our 
responsibility to ensure that federal and local response and 
preparedness plans are tailored to meet the specific needs of 
our seniors.
    I look forward to hearing from today's panel and to working 
with my colleagues to ensure our country is prepared to meet 
that responsibility.


[GRAPHIC] [TIFF OMITTED] T8924.053

[GRAPHIC] [TIFF OMITTED] T8924.054

[GRAPHIC] [TIFF OMITTED] T8924.055

[GRAPHIC] [TIFF OMITTED] T8924.056

[GRAPHIC] [TIFF OMITTED] T8924.057

[GRAPHIC] [TIFF OMITTED] T8924.058

[GRAPHIC] [TIFF OMITTED] T8924.059

[GRAPHIC] [TIFF OMITTED] T8924.060

[GRAPHIC] [TIFF OMITTED] T8924.061

[GRAPHIC] [TIFF OMITTED] T8924.062

[GRAPHIC] [TIFF OMITTED] T8924.063

[GRAPHIC] [TIFF OMITTED] T8924.064

[GRAPHIC] [TIFF OMITTED] T8924.065

[GRAPHIC] [TIFF OMITTED] T8924.066

[GRAPHIC] [TIFF OMITTED] T8924.067

[GRAPHIC] [TIFF OMITTED] T8924.068

[GRAPHIC] [TIFF OMITTED] T8924.069

[GRAPHIC] [TIFF OMITTED] T8924.070

[GRAPHIC] [TIFF OMITTED] T8924.071

[GRAPHIC] [TIFF OMITTED] T8924.072

[GRAPHIC] [TIFF OMITTED] T8924.073

[GRAPHIC] [TIFF OMITTED] T8924.074

                                 <all>

</pre></body></html>
